   February 13, 2006




Financial Management

Accuracy of Navy Contract Financing
Amounts
(D-2006-050)




                  Department of Defense
                 Office of Inspector General

                                   Constitution of
                                  the United States

     A Regular Statement of Account of the Receipts and Expenditures of all public
     Money shall be published from time to time.
                                                             Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
CHOOSE                Cash History On-Line Operating Search Engine
DFAS                  Defense Finance and Accounting Service
ERP                   Enterprise Reporting System
GAO                   Government Accountability Office
MOCAS                 Mechanization of Contract Administration Service
NAVAIR                Naval Air Systems Command
OMB                   Office of Management and Budget
SABRS                 Standard Accounting, Budgeting, and Reporting System
STARS                 Standard Accounting and Reporting System
STARS FL              Standard Accounting and Reporting System Field Level
STARS HCM             Standard Accounting and Reporting System Headquarter Claimant
                         Module
                             INSPECTOR GENERAL
                            DEPARTMENT OF DEFENSE
                             400 ARMY NAVY DRIVE
                        ARLINGTON, VIRGINIA 22202-4704




                                                                        February 13,2006
MEMORANDUM FOR ASSISTANT SECRETARY OF THE NAVY (FINANCIAL
                 MANAGEMENT AND COMPTROLLER)
               COMMANDER, NAVAL AIR SYSTEMS COMMAND
               NAVAL INSPECTOR GENERAL
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE CLEVELAND CENTER
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE KANSAS CITY CENTER
SUBJECT: Report on Accuracy of Navy Contract Financing Amounts (Report
         NO. D-2006-050)

      We are providing this report for review and comment. We considered
management comments on a draft of this report in preparing the final report.
       DoD Directive 7650.3 requires that all recommendations be resolved promptly.
The Defense Finance and Accounting Service comments were partially.responsive. We
request that the Defense Finance and Accounting Service provide additional comments on
Recommendations B. 1.a., B. 1.b, C.2.a., and C.2.b. by March 13,2006.
        If possible, please send management comments in electronic format (Adobe
Acrobat file only) to Audcolu@dodig.mil. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the I Signed 1
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).
        We appreciate the courtesies extended to the staff. Questions should be directed
to James L. Kornides at (614) 75 1-1400 ext. 210 or Mr. Mark Starinsky at (614) 75 1-
1400 ext 23 1. See Appendix B for the report distribution. The team members are listed
inside the back cover.
                               By direction of the Deputy Inspector General for Auditing:



                                         ~ a f l ~ r a n e t t oCPA
                                                                ,
                                       Assistant Inspector General
                                       Defense Financial Auditing
                                                  Service
                Department of Defense Office of Inspector General
Report No. D-2006-050                                                  February 13, 2006
   (Project No. D2005-D000FJ-0038.000)

                Accuracy of Navy Contract Financing Amounts

                                  Executive Summary

Who Should Read This Report and Why? Civilian and military personnel responsible
for collecting, summarizing, and reporting contract financing payments on the Navy
financial statements should read this report. This report discusses the completeness and
accuracy of the balance reported as contract financing by the Navy.

Background. Contract financing payments are authorized Government disbursements of
monies to a contractor prior to the delivery of supplies or services by the Government.
The Navy reported $4.7 billion as an Outstanding Contract Financing balance in
FY 2004. The balance is a part of the amount reported in the FY 2004 Balance Sheet as
“Other Assets.” We did not examine all of the data included in the FY 2004 Outstanding
Contract Financing balance, but we did review the detailed transactions from the first
6 months of FY 2004 to evaluate the Navy process for deriving the balance. The Navy
reported $6.7 billion of contract financing payments for the first 6 months of FY 2004.
This amount included $5.1 billion maintained by Naval Air Systems Command
(NAVAIR) and $1.6 billion maintained by the Defense Finance and Accounting Service
(DFAS). The NAVAIR data are maintained at Patuxent River, Maryland, and the DFAS
data are maintained at Cleveland and Kansas City Centers.

Results. The amounts NAVAIR and DFAS reported as Outstanding Contract Financing
Payments for the first 6 months of FY 2004 were not fully supported and did not
accurately reflect all contract financing payments that the Navy paid.

During the audit, NAVAIR made improvements to correct weaknesses in its FY 2004
process during the audit. However, additional actions were still needed in FY 2005. The
current process still lacked adequate written procedures, lacked adequate supporting
evidence for $466.2 million (absolute) of financing transactions, and excluded valid
financing payment transactions totaling $66.6 million (absolute) from the amount it
reported. As a result, the $4.7 billion Outstanding Contract Financing balance related to
the FY 2004 transactions was not fully supported or complete. The weakness in
reporting the appropriate amounts was material to the amount of NAVAIR financing
payments on the balance sheet. Unless NAVAIR corrects its process for reporting
contract financing, future Navy contract financing balances derived from the data will
continue to be inaccurate. (See Finding A for the detailed recommendations.)

DFAS could not provide all supporting documentation for the financing balance it
reported, excluded $198 million from the beginning balance for FY 2004, and excluded
at least $238 million (absolute) of transactions related to the March 2004 ending balance.
The amount DFAS reported did not include certain categories of appropriations,
including those for the Marine Corps, and did not reflect other miscellaneous
transactions. Additionally, DFAS could not provide support for $64.5 million in “other
transactions.” As a result, the Navy reported an Outstanding Contract Financing balance
that was misstated by at least $3.2 billion for the second quarter of FY 2004. These
weaknesses were not corrected in FY 2005. Unless DFAS improves its controls for the
reporting of contract financing transactions, the Navy will continue to report an
inaccurate and unverifiable Outstanding Contract Financing balance on the financial
statements. Therefore, the Navy Outstanding Contract Financing balance will not be
auditable. (See Finding B for the detailed recommendations.)

The Navy and DFAS Management Control Programs for the Outstanding Contract
Financing balance were ineffective and did not provide reasonable assurance that internal
controls for the Outstanding Contract Financing balance were in place and operating
effectively. As a result, the Navy and DFAS did not adequately identify and report
material weaknesses for the Outstanding Contract Financing balance in the FY 2004
Annual Statement of Assurance. (See Finding C for the detailed recommendations.)

Management Comments and Audit Response. The Director, Office of Financial
Operations, Assistant Secretary of the Navy (Financial Management and Comptroller)
and the Director, Accounting Service for DFAS provided comments that were
responsive. However, the Director, Accounting Service did not agree that DFAS
Cleveland should maintain detailed support for the contract financing balance and stated
that the control weaknesses are not material. He disagreed that any additional testing or
reporting on the weaknesses is needed. We believe that DFAS Cleveland should
maintain detailed records that support the account balance as required by Federal
Accounting Standards and should report the material weaknesses. We request that the
Director, Accounting Service for DFAS Cleveland reconsider his position and provide
additional comments on these issues by March 13, 2006. See the Finding section of the
report for a discussion of management comments and the Management Comments
section of the report for the complete text of the comments.




                                            ii
Table of Contents

Executive Summary                                                            i

Background                                                                   1

Objectives                                                                   2

Management Control Program Review                                            2

Findings
     A. Naval Air Systems Command Process for Reporting Contract
          Financing Amounts                                                 4
     B. Defense Finance and Accounting Service Process for Reporting Navy
          Contract Financing                                                10
     C. Navy and Defense Financing and Accounting Service Management
          Control Program                                                   16

Appendixes
     A. Scope and Methodology                                               22
     B. Report Distribution                                                 23

Management Comments
     Department of the Navy                                                 25
     Defense Finance and Accounting Service                                 32
Background
    Contract financing payments are defined by the Federal Acquisition Regulation as
    Government payments to a contractor prior to the delivery of supplies or services
    by the Government. The Navy reports its contract financing as an Outstanding
    Contract Financing balance, and that amount is included in the Other Assets
    account on the Balance Sheet of the Navy financial statements.

    The Outstanding Contract Financing balance includes several types of
    transactions. The first type of transaction is contract financing payments.
    Another type of transaction that affects the Outstanding Contract Financing
    balance occurs when the final product or service is delivered. Upon delivery, the
    Navy records a negative adjustment (recoupment) to remove the associated
    contract financing amounts, which results in a reduction of the total contract
    financing balance. Other transactions, such as adjustments that the Navy or
    Defense Finance and Accounting Service (DFAS) record as a result of research
    related to the original contract financing payments, also affect the outstanding
    balance.

    Federal Acquisition Regulation (FAR) 32.503-5, “Administration of Progress
    Payments,” requires that contract financing be supported by the fair value of the
    work accomplished by the contractor. In its financial statements, the Navy
    reported three types of contract financing payments: performance-based
    payments, progress-based payments, and commercial financing interim payments.

    Performance-based payments. According to the FAR, performance-based
    payments are contract financing payments made on the basis of performance
    measured by objective, quantifiable methods; accomplishment of defined events;
    or other quantifiable measures of results.

    Progress-based payments. Progress-based payments are contract financing
    payments made on the basis of the contractor cost or percentage of completion
    accomplished. Defense Federal Acquisition Regulation Supplement 232.501-1,
    “Customary Progress Payment Rates,” designates a customary DoD progress
    payment rate of 80 percent of a contractor’s cumulative allowable costs.
    Contractors provide cost data through progress payment requests that summarize
    the total allowable costs incurred on a contract as of a specified date. The FAR
    states that progress payments may include reasonable and applicable costs
    consistent with generally accepted accounting principles and payments that have
    been made to subcontractors or suppliers, or both by some form of payment.
    Progress payments may not include incurred costs by subcontractors or suppliers,
    or costs that would otherwise be capitalized. As goods and services are provided,
    progress payments are liquidated, or recouped, based on the progress payment
    rate established in the contract.

    Commercial financing interim payments. Commercial financing interim
    payments are contract financing payments made under specific circumstances.
    Either the contract item financed is a commercial supply or service or the contract
    price exceeds the simplified acquisition threshold and the contracting officer
    determines that it is appropriate or customary in the commercial marketplace to
    make financing payments for the item.



                                         1
    Systems for Reporting Contract Financing. The Navy uses four systems to
    account for contract financing. Specifically, NAVAIR uses Enterprise Reporting
    System (ERP). DFAS Cleveland uses the Standard Accounting and Reporting
    System (STARS), STARS Headquarter Claimant Module (STARS HCM), and
    STARS Field Level (STARS FL). DFAS Kansas City uses the Standard
    Accounting, Budgeting, and Reporting System (SABRS).

    DFAS Columbus utilizes the Mechanization of Contract Administration Service
    (MOCAS) system as the administration and disbursement system for contractor
    payments including financing payments. DFAS Columbus submits payment
    information directly to STARS HCM and Defense Cash Accountability System
    before going to the Central Master Edit Table or Air Master Edit Table. These
    tables are designed to separate the data to be processed either through ERP or
    STARS FL. After ERP, STARS FL, and SABRS process the contract financing
    transactions, the data are sent to DFAS Cleveland to be posted to the Financial
    Statements.

    Amount of Contract Financing in FY 2004. For those contract financing
    payments reported as Outstanding Contract Financing, the Defense Contract
    Management Agency was primarily responsible for administering and approving
    contract financing payments on DoD contracts, and DFAS Columbus was
    responsible for payment. In the first 6 months of FY 2004, the DFAS Columbus
    Center disbursed about $11.4 billion in U.S. progress payments, performance-
    based payments, and commercial financing interim payments to Defense
    contractors. The Navy reported $4.7 billion in these three types of contract
    financing payments on the financial statements for FY 2004.

    For second quarter of FY 2004, the Navy reported a $6.7 billion balance for
    outstanding contract financing transactions. Of the $6.7 billion, the Navy
    included $5.1 billion from NAVAIR and $1.6 billion from DFAS Cleveland.


Objectives
    The audit objective was to determine whether the Navy is accurately collecting
    and reporting on its financial statement all contract financing payments that were
    paid by DFAS Columbus during FY 2004. We also reviewed the management
    control program as it related to the overall objective. See Appendix A for a
    discussion of the scope and methodology.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.




                                         2
Scope of the Review of the Management Control Program. We reviewed the
adequacy of the management controls of the Navy and DFAS Cleveland over the
reporting of contract financing payments on the Balance Sheet. Specifically, we
determined whether the Navy and DFAS Cleveland accurately reported
Outstanding Contract Financing balances. We also reviewed the adequacy of
management’s self-evaluation of those controls.

Adequacy of Management Controls. We identified material management
control weaknesses for the Navy and DFAS Cleveland, as defined by DoD
Instruction 5010.40. The Navy and DFAS Cleveland management controls for
accurately reporting Outstanding Contract Financing balances were not adequate
to ensure that the Outstanding Contract Financing balance was complete and
supportable. The recommendations in this report, if implemented, will correct the
identified weaknesses. A copy of the report will be provided to the senior
officials responsible for management controls in the Navy and DFAS Cleveland.

Adequacy of Management’s Self-Evaluation. The Navy and DFAS officials
did not identify the reporting of the Outstanding Contract Financing balance as an
assessable unit and, therefore, did not identify or report the material management
control weaknesses identified by the audit.




                                    3
           A. Naval Air Systems Command Process
              for Reporting Contract Financing
              Amounts
           The $5.1 billion included by NAVAIR as its portion of the contract
           financing balance on the Navy’s second quarter FY 2004 financial
           statement was not fully supported and did not reflect all amounts of
           contract financing transactions associated with NAVAIR. This occurred
           because NAVAIR did not establish a process to accurately report contract
           financing transactions in FY 2004. While NAVAIR made adjustments to
           the process during the audit to correct these weaknesses, the current
           process still had weaknesses. The 2004 NAVAIR process included:

               •   an unsupportable beginning balance of $3.8 billion,

               •   an apparent duplicate posting of $8.2 billion (absolute) of
                   transactions that occurred in the 4th quarter of FY 2003, and

               •   the exclusion of $2.5 billion (absolute) of valid contract financing
                   transactions that occurred in the first quarter of FY 2004.

           The 2005 NAVAIR process included:

               •   a lack of adequate written procedures,

               •   a lack of adequate supporting evidence for $458.2 million
                   (absolute), and

               •   the exclusion of valid transactions totaling $66.5 million (absolute)
                   that were not posted to the accounting system.

           Although NAVAIR improved its reporting procedures for FY 2005, a lack
           of controls over the contract financing transactions that comprise the
           balance remained. As a result, the Navy could not demonstrate its
           contract financing balance for FY 2004 was correct and will not be able to
           assert that the FY 2005 and future balances will be accurate until
           improvements are made.


NAVAIR 2004 Process for Reporting Contract Financing
    In FY 2003 and FY 2004, NAVAIR reported its quarterly and year-end
    outstanding contract financing balance by adding the prior period ending balance
    to the contract financing transactions for the most recent quarter. NAVAIR uses
    the ERP system as their accounting system.

    FY 2004 Beginning Balance. NAVAIR reported a beginning FY 2004 contract
    financing balance of $3.8 billion but could not provide supporting documentation
    for the entire amount. The $3.8 billion reported for the first quarter of FY 2004
    was $850 million less than the ending FY 2003 balance (an 18 percent decrease).


                                         4
NAVAIR was unable to explain why the first quarter FY 2004 balance did not
match the FY 2003 ending balance and could not provide any details to support
the FY 2004 beginning balance. The beginning balance lacked a detailed audit
trail that would support the $3.8 billion balance. The second quarter FY 2004
beginning balance matched the first quarter ending balance. Table 1 shows the
beginning and ending balances for FY 2004 first and second quarters.


                   Table 1. Analysis of Beginning and Ending Balances.

  Financial Statement                            Beginning                       Percent
    Reporting Period       Ending Balance          Balance       Difference   Difference
 FY 2003 4th quarter       $4,603,969,318
                                                             $(845,178,105)    (18.36)%
 FY 2004 1st quarter                        $3,758,791,213
 FY 2004 1st quarter       $4,958,715,637
 FY 2004 2nd                                $4,958,715,645               $7      0.00%
 quarter


NAVAIR was unable to provide support for the change in the FY 2004 beginning
balance. Our analysis of the data that were available showed that the change in
dollar value from the ending FY 2003 balance to the beginning FY 2004 balance
occurred because a control to ensure that the ending balance reconciled to the
beginning balance was not in place. NAVAIR did not have the necessary internal
controls in place to ensure that the correct contract financing balance had been
used and that change in balances were properly supported. Specifically,
NAVAIR should have maintained records that supported the change in balance
from FY 2003 to FY 2004.

Potential Duplicate Postings. The NAVAIR data indicated that in FY 2004
NAVAIR erroneously posted $8.2 billion (absolute) of contract financing
transactions that occurred in FY 2003. In the first quarter of FY 2004, instead of
posting first quarter FY 2004 detailed transactions to obtain the first quarter
FY 2004 balance, NAVAIR posted detailed transactions that occurred in the
fourth quarter of FY 2003. Because NAVAIR was unable to provide support for
the FY 2004 beginning balance, we could not determine whether NAVAIR had
also previously posted these transactions in FY 2003. These transactions
potentially may have been included in the ending contract financing balance
twice. The $8.2 billion (absolute) of unsupportable transactions had a net value
of $1.2 billion.

The improper posting of FY 2003 transactions in FY 2004 occurred because
NAVAIR did not have internal controls in place to ensure that contract financing
transactions were posted in the proper accounting period and only one time. A
process to reconcile posted transactions to the MOCAS records would have
identified this weakness.

Exclusion of Valid First Quarter FY 2004 Transactions. NAVAIR excluded
at least $2.5 billion (absolute) of valid first quarter FY 2004 contract financing
transactions from the Navy balance sheet for the first and second quarter of
FY 2004. Specifically, we identified at least 2,760 MOCAS contract financing
transactions associated with NAVAIR that occurred in the first quarter FY 2004
totaling $0.4 billion (net) and $2.5 billion (absolute) that were excluded.


                                       5
    NAVAIR did not post any first quarter FY 2004 contract financing transactions
    because NAVAIR did not have controls in place to ensure that all contract
    financing transactions were posted in the proper accounting period. Specifically,
    a process to reconcile posted transactions to the MOCAS records would have
    identified this weakness.


Changes to NAVAIR Reporting Process for 2005
    The NAVAIR process of reporting its contract financing balance on the balance
    sheet for FY 2004 resulted in at least $14 billion (absolute) of unsupported or
    inaccurate contract financing transactions. During the audit and based on
    inquiries from the Office of the Assistant Secretary of the Navy (Financial
    Management and Comptroller), NAVAIR realized that the process for reporting
    contract financing was inadequate and instituted changes to its accounting process
    for contract financing. Because of the changes that occurred for FY 2005, we are
    not making any recommendations associated with the weaknesses that we
    observed for FY 2004. Instead, we have reviewed the FY 2005 process.


NAVAIR Process for Reporting Contract Financing
    FY 2005. During the first quarter of FY 2005, NAVAIR changed its process for
    reporting its contract financing balance. The FY 2005 NAVAIR process extracts
    all contract financing transactions that have been posted in ERP and also adds
    summary contract financing amounts associated with FY 2002 and prior years.
    NAVAIR sends this amount to DFAS Cleveland to be reported on the financial
    statements. To determine if NAVAIR had implemented improvements to the
    reporting process, we reviewed transactions during the same period (October 1,
    2003 through March 31, 2004).

    The NAVAIR process had improved. Specifically, NAVAIR was able to provide
    detailed support for the entire contract financing balance. About 90 percent of the
    absolute value of the first half of FY 2004 ERP transactions were reconcilable to
    MOCAS records for the same time period. However, the records showed that
    inaccuracies and control weaknesses, including continued lack of an adequate
    audit trail, remained.

    Adequacy of Written Procedures. NAVAIR did not develop or maintain
    written procedures for the new process for reporting contract financing. Written
    procedures are vital to ensure that the intent of management is carried out and to
    ensure the accuracy and consistency of reported balances. Written procedures
    help prevent errors and unintended consequences from occurring, such as when
    employee turnover occurs. NAVAIR should develop written procedures to
    document the process to extract the contract financing transactions reported on
    the balance sheet and to save the transactions with enough detail to allow for an
    audit trail.

    Accuracy of the NAVAIR Balance. For transactions that occurred during the
    first half of FY 2004, we were able to reconcile 7,477 out of 7,744 ERP
    transactions to supporting MOCAS records. The reconciled transactions totaled


                                         6
92 percent of the absolute value of the NAVAIR reported amounts. The
remaining 267 transactions valued at $431.0 million (absolute) were not
supported by MOCAS records. Additionally, we identified 99 FY 2003 invoices
valued at $27.1 million (absolute) that were not supported by MOCAS records
and 94 valid MOCAS transactions valued at negative $50.8 million (net) and
$66.5 million (absolute) that were not included in the NAVAIR balance but
should have been.

Supportability of NAVAIR Transactions. For the FY 2004 transactions we
examined, 267 totaling negative $19.9 million (net) and $431.1 million (absolute)
were not supported by MOCAS transactions posted in the same accounting
period. We also identified 99 FY 2003 transactions valued at negative
$13.5 million (net) and $27.1 million (absolute) that were not supported by
MOCAS transactions posted in the same accounting period. These
unreconcilable transactions appeared to be either NAVAIR duplicates of valid
transactions or were reversals of valid transactions. There were 15 other
miscellaneous postings that NAVAIR could not explain. Table 2 contains a
summary of the unsupportable NAVAIR transactions.


             Table 2. Unsupportable NAVAIR FY 2004 Transactions
                                                    (in millions)
                                Number of                     Absolute
                                 Invoices    Net value         Value
       Duplicate Postings               33     $ 2.4              $ 2.4
       Reconciliation                  183       (24.6)              45.1
       Reversing Entries               135        (9.3)            408.0
       Miscellaneous                    15        (1.9)               2.7
        Total                          366      $(33.4)           $458.2


       Duplicate Postings. ERP records showed that NAVAIR made
33 duplicate postings related to transactions with a treasury date of November 11,
2003. The duplicate posting of the 33 transactions resulted in a $2.4 million (net)
and $2.4 million (absolute) overstatement of the outstanding contract financing
balance for first and second quarter of FY 2004. NAVAIR was unable to provide
an explanation as to why these transactions were posted in the ERP database.

        Reconciliation. NAVAIR personnel stated that when ERP first came
on-line, some payments were excluded because NAVAIR believed them to be
duplicate payments. However, in the beginning of 2004, NAVAIR realized that
the excluded payments were not duplicates and should have been recorded in the
database. To correct the problem, NAVAIR performed a reconciliation of the
transactions in ERP to MOCAS files to identify the valid payments that had been
excluded and to record them in the database. NAVAIR posted the excluded
payments on March 4, 2004. We included the payments in our audit because the
posting date fell within our scope even though the payments occurred in FY 2003.

To determine whether the FY 2003 transactions were valid, we analyzed MOCAS
contract records to quantify the number of payments made, the payment amount,
and other relevant accounting data. We compared the MOCAS data to the entire
ERP database (including transactions posted in FY 2003). NAVAIR posted at
least 183 transactions totaling negative $24.6 million (net) and $45.1 million


                                     7
(absolute) related to the March 4, 2004, transactions that did not reconcile to
MOCAS.

        Reversing Entries. NAVAIR posted 135 contract financing transactions
in the ERP database on January 21, 2004, that were not supported by MOCAS
transactions for the same time period. These transactions were related to a
specific contract and reversed 135 transactions posted to ERP on May 23, 2003.
The 135 transactions originally posted on May 23, 2003, were supported by
MOCAS records. The accounting adjustment resulted in a negative $9.3 million
(net) and $408 million (absolute) of incorrect transactions posted to ERP in
second quarter FY 2004.

        Other Miscellaneous Transactions. NAVAIR posted 15 additional
transactions totaling negative $1.9 million (net) and $2.7 million (absolute) that
were not supported by MOCAS records. NAVAIR could not explain why these
transactions were included in the contract financing database.

Exclusion of Valid Transactions. When calculating its contracting financing
balance, NAVAIR excluded 18 valid transactions related to certain accounting
stations, overlooked 58 transactions during a reconciliation of ERP and MOCAS,
and also excluded 18 other miscellaneous transactions. See Table 3 for a
summary of the excluded valid MOCAS transactions.


                   Table 3. Excluded Valid MOCAS Transactions
                                                             (in millions)
                                         Number of                     Absolute
                                          Invoices    Net value         Value
  Excluded Accounting Stations                   18      $ (0.7)            $ 1.0
  Overlooked Transactions                        58        (49.8)            63.7
  Miscellaneous                                  18         (0.3)             1.8
   Total                                         94       $(50.8)           $66.5


        Excluded Accounting Stations. When calculating its first and second
quarter contract financing balance, NAVAIR did not include contract financing
transactions from two accounting stations. These stations are responsible for
reporting accounting information for two NAVAIR inventory control points.
Because of the NAVAIR oversight, 18 transactions from October 1, 2003,
through March 31, 2004, totaling negative $0.7 million (net) and $1.0 million
(absolute) were excluded from the NAVAIR contract financing balance.

        Overlooked Transactions. NAVAIR did not report at least 58 contract
financing transactions totaling negative $49.8 million (net) and $63.7 million
(absolute) because its reconciliation to MOCAS transactions did not identify them
as missing from the ERP database. NAVAIR was unable to explain why those
transactions were excluded from the ERP database.

        Miscellaneous Excluded Transactions. NAVAIR excluded 18
transactions totaling negative $0.3 million (net) and $1.8 million (absolute) from
the reported contract financing amount. We provided these transactions to
NAVAIR, but they were unable to explain why these transactions were not in
their database.


                                     8
Effect on Navy Financial Statements
     The weaknesses that we found could be material to the balance sheet amount.
     The Navy did not maintain written procedures for compiling its contract financing
     balance, excluded valid contract financing amounts, and included contract
     financing amounts that were not supported by source documentation in MOCAS.
     Future Navy contract financing balances derived from ERP data will continue to
     be inaccurate until improvements are made.


Recommendations and Management Comments
     A.1. We recommend that the Commander Naval Air Systems Command:

           a. Direct the establishment of written procedures for preparing the
     contract financing balance, including the retention of a proper audit trail.

     Management Comments. The Director, Office of Financial Operations,
     Assistant Secretary of the Navy (Financial Management and Comptroller)
     concurred with the recommendation and stated that the Navy will use data from
     U.S. Treasury Department to better reflect contract financing payments. He
     stated that the Navy has developed written procedures and instituted a process to
     validate the ending balance with the beginning balance. He indicated that Naval
     Air Systems Command has strengthened the basic information technology
     controls around the cash file receipt, subsequent file management, and internal
     posting of transactions received from DFAS.

           b. Direct the establishment of procedures for including all
     supportable, valid contract financing transactions into the Enterprise
     Resource Planning database, such as performing a reconciliation of
     Enterprise Resource Planning transactions to Mechanization of Contract
     Administration Service transactions.

     Management Comments. The Director, Office of Financial Operations,
     Assistant Secretary of the Navy (Financial Management and Comptroller)
     concurred with the recommendation and stated that the Navy determined that
     some accounts were not included in the appropriate area and has taken corrective
     action to have them included. DFAS Cleveland and Navy Air System Command
     have an ongoing effort to reexamine this process and plan to perform an end-to-
     end review of the disbursements process.




                                         9
           B. Defense Finance and Accounting
               Service Process for Reporting Navy
               Contract Financing
           The $1.6 billion submitted by DFAS as its input for the contract financing
           balance on the Navy’s second quarter 2004 financial statements did not
           reflect all amounts of contract financing transactions associated with the
           Navy. This occurred because the DFAS process for reporting the Navy
           contract financing balance maintained in STARS and SABRS did not
           provide complete and accurate accounting information. Specifically,
           DFAS

               •   could not provide accurate supporting documentation for the
                   change it made to the contract financing balance from FY 2003
                   through the second quarter of FY 2004;

               •   inappropriately excluded transactions associated with FY 2003
                   appropriations when calculating the beginning balance for
                   FY 2004;

               •   inappropriately excluded all contract financing transactions that
                   occurred in March 2004, certain STARS subheads, and other
                   miscellaneous contract financing transactions;

               •   inconsistently reported or inappropriately excluded contract
                   financing transactions related to the Marine Corps and;

               •   inappropriately included transactions that were not supportable.

           These weaknesses occurred because DFAS does not have adequate
           controls to prepare an accurate and supportable contract financing balance.
           As a result, the Navy reported contract financing balance was misstated by
           at least $3.2 billion (absolute.) If internal controls for the reporting of
           contract financing transactions are not improved, the Navy will continue
           to report an inaccurate and unverifiable contract financing balance on the
           financial statements.


Process for Reporting STARS Contract Financing Amounts
    DFAS Cleveland personnel performed a query of STARS information on a
    quarterly basis to obtain the ending balance for several financial statement line
    items, including contract financing (General Ledger account 1450.300). STARS
    provides the information at a summary level by appropriation, year, and subhead.
    A subhead is a further subdivision of an appropriation that indicates accounting
    information for transactions associated with that particular appropriation, such as
    STARS, ERP, or SABRS. To report the quarterly contract financing balance,
    DFAS Cleveland personnel removed all balances related to canceled
    appropriations and posted the remaining amount into a trial balance, which was
    imported into their general ledger system. STARS contract financing data


                                        10
    accounted for $1.6 billion of the $6.7 billion of the total Navy contract financing
    balance for the second quarter of FY 2004.


Adequacy of DFAS Process for Reporting STARS and SABRS
  Amounts
    The data provided by DFAS Cleveland did not support the reported change in the
    STARS balance from FY 2003 through the end of the second quarter of FY 2004.
    The DFAS supporting data excluded certain contract financing transactions that
    occurred and also included unsupportable transactions.

    Supportable Audit Trail. DFAS Cleveland was unable to provide detailed
    support for the change in the reported contract financing balance from $1.2 billion
    at the end of FY 2003 to $1.6 billion through the second quarter of FY 2004. We
    requested all transactions that accounted for the change in the contract financing
    balance during this period, but DFAS Cleveland had not retained that
    documentation. DFAS Cleveland did provide detailed STARS contract financing
    transactions related to the outstanding contract financing balance that were posted
    during that timeframe. However, the detailed STARS data did not match the
    summary change. The summary change was $412 million (net) more than the
    detailed transactions. Part of the $412 million difference related to DFAS
    Cleveland excluding detailed transactions associated with FY 2003 appropriations
    and excluding March 2004 transactions from the March 2004 summary data.

    In addition, DFAS Cleveland was unable to provide written procedures for
    compiling and reporting the outstanding contract financing amount. Written
    procedures are important to ensure consistency and accountability and to
    demonstrate management oversight of the process. From October 2004 through
    March 2005, at least three different individuals compiled this balance. Written
    procedures would have improved the employees’ understanding of their job
    requirements. If written procedures for preparing contract financing balances had
    been available during this period, more documentation may have been available
    to support reported contract financing balances.

    Completeness of Reported Contract Financing Balance. Although DFAS
    Cleveland was not able to provide an adequate audit trail, DFAS Cleveland did
    provide sufficient documentation so that we were able to perform limited analysis
    of the summary and detailed data. We were able to reconcile negative
    $4.5 million (net), which is 103 percent, and $1,114.4 million (absolute), which is
    95 percent, of the negative $3.6 million (net) in posted transactions in the first two
    quarters of FY 2004 that were supported by MOCAS transactions. However, we
    identified instances in which DFAS Cleveland excluded valid transactions. The
    DFAS exclusions totaled about $3.2 billion (absolute), which was material to the
    March 31, 2004, reported ending balance.




                                         11
Table 4 shows a summary of the excluded transactions that affected the FY 2004
second quarter Outstanding Contract Financing balance.




                  Table 4. Excluded Valid MOCAS Transactions
                                   (in millions)
                                         Net Value      Absolute Value
            March 2004                        $ 38.7          $ 237.8
            STARS Subheads                       42.7            119.3
            Miscellaneous                      (26.3)             68.4
            Marine Corps                        197.7          2,724.8
             Total                            $252.8          $3,150.3


        Reporting FY 2003 Appropriations. DFAS Cleveland excluded all
balances related to FY 2003 appropriations in the ending FY 2003 balance (which
is the beginning FY 2004 balance). Based on DFAS data for the Navy, the
FY 2004 beginning balances for the FY 2003 appropriation with STARS
subheads would have totaled $198 million. This material amount is 16 percent of
the FY 2003 reported ending balance of $1,202.8 million. DFAS Cleveland was
unable to explain why these appropriations were not included on the FY 2003
balance. When DFAS Cleveland prepared the March 31, 2004, Outstanding
Contract Financing balance, it correctly included these appropriations. However,
further controls, such as a reconciliation of posted transactions to MOCAS
records, are needed to ensure that all valid appropriations are always included.

        Reporting March 2004 Contract Financing Transactions. When
DFAS Cleveland prepared the March 31, 2004, Outstanding Contract Financing
balance, it excluded all negative $38.7 million (net) and $237.8 million (absolute)
contract financing transactions that occurred in March 2004. DFAS Cleveland
personnel were unable to explain why the March transactions were not included
in the March 31, 2004, Outstanding Contract Financing balance. Additionally,
data were not available for us to determine with absolute certainty that the March
2004 contract financing transactions were included in the ending FY 2004
balance. Further controls, such as a reconciliation of posted transactions to
MOCAS records, are needed to ensure that all transactions for the reporting
period are included in the financial statements.

        Including All Appropriate STARS Subheads. The STARS data
showed that DFAS Cleveland excluded 38 subheads that should have been
included in the STARS contract financing transactions. For the first two quarters
of FY 2004, we identified 216 MOCAS transactions totaling $50 million
(absolute) and $41 million (net) related to the 38 subheads. The Cash History
On-Line Operating Search Engine (CHOOSE), the Navy system that registers
transactions reported to Treasury, showed that the contract financing transactions
for these subheads as of March 31, 2004, totaled $42.7 million (net) and
$119.3 million (absolute). DFAS Cleveland could not explain why these
subheads were not reported on the financial statements. Additional controls, such
as a reconciliation of posted transactions to MOCAS records, are needed to
ensure that all Navy contract financing transactions are included on the balance
sheet.


                                    12
        Including Other Valid Contract Financing Transactions. DFAS
Cleveland did not include 178 MOCAS contract financing transactions that
occurred between October 1, 2003, and March 31, 2004, in the financial
statements. The 178 transactions totaled negative $26.3 million (net) and
$68.4 million (absolute). We determined that the 178 transactions were
associated with accounting subheads that DFAS had otherwise included in the
Navy financial statements. DFAS Cleveland could not explain why these
transactions were not in the financial statements. Additional controls are needed
to ensure that all Navy contract financing transactions are included on the balance
sheet. Specifically, the Navy needed to reconcile STARS posted transactions to
MOCAS records.

       Including Marine Corps Contract Financing Transactions. DFAS is
not consistently and accurately reporting $197 million (net) and $2,720.9 million
(absolute) of contract financing amounts related to the Marine Corps.
Specifically, DFAS reports a portion of the Marine Corps contract financing as
Advances and Prepayments and excludes the remaining portion from the balance
sheet.

DFAS Kansas City provides finance and accounting and reporting services for the
Marine Corps. According to the DFAS Kansas City audited financial statement
branch, information contained in the Marine Corps SABRS system is
incorporated into the Navy financial statements. According to DFAS Kansas
City, MOCAS transactions coded with “6W” are included in the prepayments
General Ledger Account Classification. DFAS Kansas City stated that for the
second quarter FY 2004, they reported $159.0 million in prepayments for the
Marine Corps. However, a large portion of the reported prepayments were related
to 6W transactions in MOCAS. DFAS misclassified the contract financing
payments coded as 6W as advances and prepayments. DFAS should report these
transactions as Navy contract financing transactions. Navy CHOOSE, as of
March 31, 2005, showed total contract financing transactions (open
appropriations coded with 6W) of about $174.6 million (net) and $2,572.2 million
(absolute). For the six month period, MOCAS records showed 851 transactions
totaling negative $66 million (net) and $343.5 million (absolute) related to the
Marine Corps appropriations.

In addition, neither DFAS Kansas City nor DFAS Cleveland included other
appropriation and subhead combinations related to the Marine Corps Research,
Design, Test and Evaluation and Navy Procurement appropriations on the balance
sheet as Outstanding Contract Financing Payments or Advances and
Prepayments. These additional appropriations and subheads combinations should
have been included in the Marine Corps Outstanding Contract Financing balance.
MOCAS records showed 68 transactions valued at $4.5 million (net) and
$42.0 million (absolute) related to these subheads that were overlooked. Navy
disbursement records also showed total contract financing transactions for these
subheads of about $23 million (net) and $152.5 million (absolute.) DFAS did not
have any procedure in place to ensure that these amounts were reported on the
Navy financial statements. A process to reconcile posted transactions to the
MOCAS records would have identified this weakness. In addition, a DFAS
policy directing all Marine Corps subhead balances be reported would have
helped identify the weakness.




                                    13
     Verifying the Source of Other Transactions. DFAS Cleveland included
     192 transactions in the STARS contract financing balance that were not supported
     by MOCAS transactions. The unreconcilable transactions totaled negative
     $0.9 million (net) and $64.5 million (absolute). DFAS Cleveland personnel were
     unable to explain how these transactions were included in the Outstanding
     Contract Financing balance. Additional controls are needed to ensure that all
     contract financing transactions reported on the balance sheet are supportable by
     detailed transactions. A process to reconcile posted transactions to the MOCAS
     records would have identified this weakness.


Effect on Navy Financial Statements.
     The Navy reported an Outstanding Contract Financing balance from STARS and
     SABRS that was inconsistent, incomplete, and inaccurate. If internal controls for
     the reporting of contract financing transactions are not improved, the Navy will
     continue to report an inaccurate and unverifiable Outstanding Contract Financing
     balance on the financial statements.

     The $6.7 billion Outstanding Contract Financing balance on the Navy’s second
     quarter 2004 financial statements did not reflect all amounts of STARS and
     SABRS contract financing transactions that it should have. In preparing the
     midyear contract financing balance for the Navy, DFAS excluded valid
     transactions totaling $252.7 million (net) and $3,150.3 million (absolute).
     Additional procedures are needed so that an accurate Outstanding Contract
     Financing balance is calculated in the future.


Recommendations, Management Comments, and Audit
  Response
     B.1 We recommend that the Director of Defense Finance and Accounting
     Service Cleveland establish policies to:
            a. Retain detailed documentation that supports reported
     Outstanding Contract Financing balances. A reconciliation of posted
     transactions to the Mechanization of Contract Administration Service
     records would have identified this weakness.

     Management Comments. The Director, Accounting Services partially
     concurred. He stated that DFAS Cleveland is presently developing a
     reconciliation process between the U.S. Treasury Department records and the
     Navy Accounting System records. The reconciliation will ensure that
     transactions processed by MOCAS through Treasury are matched to those
     processed in the accounting system.

     Audit Response. The Director’s comments are partially responsive. While we
     agree that reconciling MOCAS, Treasury, and STARS data will help ensure that
     all transactions are recorded in STARS, DFAS needs to ensure that proper
     documentation is retained to support the contract financing balance. For example,
     the supporting documentation provided to us for the first two quarters of FY 2004


                                        14
did not match the balance derived from the queries that were saved as support for
the balance. DFAS was unable to explain the difference, and only our detailed
analysis showed the origin of some of the discrepancies. Retention of the detailed
documentation for the transactions could have shown the discrepancies sooner.
We request that the Director reconsider his position on the recommendation and
provide comments on the final report.

       b. Ensure that all valid contract financing transactions are included
in the Outstanding Contract Financing balances, including appropriations
and subheads. A complete reconciliation of transactions posted to the
financial statements and the Mechanization of Contract Administration
Service transactions would have identified this weakness.

Management Comments. The Director, Accounting Services partially
concurred with the recommendation. Specifically, DFAS stated that FY 2003
appropriations and March 2004 transactions were excluded because of staff
inexperience and changes in personnel. DFAS stated that controls are in place to
ensure that the current accounting month is included in the queries, that an
experienced senior member performs the data extraction, and that DFAS is
drafting a data extraction desktop operating procedure. DFAS Cleveland
disagreed that they could not provide supporting documentation for the change it
made to the contract financing balance from FY 2003 through the second quarter
of FY 2004. DFAS Cleveland stated that they provided a data file containing
MOCAS transactions based on required data elements.

Audit Response. The Director’s comments were responsive. We agree that desk
procedures related to data extraction will help ensure that all valid transactions
are included in the contract financing balance. However, the detailed data
provided by DFAS Cleveland did not match the summary change in the Navy
contract financing balance. Therefore, additional controls need to be in place to
ensure that all valid transactions are included. In addition, as discussed in the
finding, DFAS Cleveland did not include all valid MOCAS transactions from FY
2003 through the second quarter of FY 2004. We request that Management
reconsider their position and provide additional comments.

B.2 We recommend that the Director of Defense Finance and Accounting
Service Kansas City establish a written policy to report contract financing
transactions that is consistent with the Federal Accounting Standards for
reporting contract financing transactions.

Management Comments. The Director, Accounting Services concurred with
our recommendation. He stated that DFAS would revise written policy to ensure
that the contract financing transactions are reported appropriately in the footnotes.

B.3 We recommend that the Director of Defense Finance and Accounting
Service assign responsibility to the appropriate staff for reporting Marine
Corps contract financing transactions related to Navy Procurement and
Research, Design, Test, and Evaluation procurements and issue policy that
those amounts be reported separately from advances and prepayments on
the Balance Sheet.




                                     15
Management Comments. The Director, Accounting Services concurred with the
recommendation. He stated that DFAS will set up procedures to capture and
report the Marine Corps subheads for these appropriations.




                                16
                    C. Navy and Defense Finance and
                       Accounting Management Control
                       Program
                    The Navy and DFAS Management Control Programs were ineffective for
                    ensuring an accurate, supportable General Fund Outstanding Contract
                    Financing Balance. Although the Navy disclosed a material weakness
                    related to the accuracy of its financial statements, it did not specifically
                    identify contract financing as an area of weakness. The responsible DFAS
                    Centers did not identify and report a material weakness for the Navy
                    Outstanding Contract Financing Balance in their FY 2004 Annual
                    Statement of Assurance. These weaknesses occurred because the Navy
                    and DFAS did not adequately perform a general assessment of the internal
                    controls for the Outstanding Contract Financing balance. Specifically, the
                    Navy and DFAS Management Control Programs did not establish clear
                    control objectives, potential risks, and control techniques within their
                    assessable units that would have prevented the material weaknesses from
                    occurring. As a result, the Navy and DFAS cannot provide reasonable
                    assurance that internal controls for the Outstanding Contract Financing
                    balance are in place and operating effectively.


Criteria for Management Control Programs
           Government Accountability Office (GAO). GAO/AIMD-00-21.3.1, “Standards
           for Internal Control in the Federal Government,” November 1999, (The Green
           Book) states:
                    The Federal Managers’ Financial Integrity Act (FMFIA) of 1982
                    requires GAO to issue standards for internal control in Government.
                    The standards provide the overall framework for establishing and
                    maintaining internal control and for identifying and addressing major
                    performance and management challenges and areas at greatest risk of
                    fraud, waste, abuse, and mismanagement.

           The five standards for internal control are: control environment, risk assessment,
           control activities, information and communications, and monitoring. These
           standards define the minimum level of quality acceptable for internal control in
           government and provide the basis against which internal control is to be
           evaluated.

           Office of Management and Budget (OMB). OMB Circular A-123,
           “Management Accountability and Control,” revised Jun 21, 19951, provides
           guidance to Federal managers on improving the accountability and effectiveness
           of Federal programs and operations by establishing, assessing, correcting, and
           reporting on management controls. The OMB Circular states:

1
    The OMB recently issued a revised OMB Circular A-123, “Management’s Responsibility for Internal
    Control,” December 21, 2004; however, this revised guidance does not take effect until FY 2006. In the
    interim, the previous guidance should be followed.


                                                     17
           Management controls are the organization, policies, and procedures
           used by agencies to reasonably ensure that programs achieve their
           intended results; resources are used consistent with agency mission;
           programs and resources are protected from waste, fraud, and
           mismanagement; laws and regulations are followed; and reliable and
           timely information is obtained, maintained, reported, and used for
           decision making.

    DoD Directive. DoD Directive 5010.38, “Management Control (MC) Program,”
    August 26, 1996, implements GAO and OMB guidance that is required by the
    FMFIA of 1982. The DoD Directive requires DoD Components to implement a
    comprehensive strategy for management controls that provides reasonable
    assurance that “. . .programs and administrative and operating functions are
    efficiently and effectively carried out in accordance with applicable law and
    management policy.” The management control process should be integrated into
    the daily management practices of all DoD managers. When developing the
    Management Control Program, DoD managers should rely on all contributing
    information sources, including external audits.

    DoD Instruction. DoD Instruction 5010.40, “Management Control Program
    (MC) Program Procedures” August 28, 1996, requires DoD Components to
    develop a Management Control Program. The Management Control Program,
    through its self assessment process, assists managers in identifying material
    management control weaknesses. The DoD instruction states that in order for the
    deficiency to be a material weakness, two conditions must be met:

           •   management controls are not in place, not used, or not adequate; and

           •   the weakness is material enough to require the attention of the next
               level of management.

    Each DoD Component should submit an annual statement of assurance based on a
    general assessment of the effectiveness of the management controls.


Navy and DFAS General Assessment of Internal Controls
    The Navy and DFAS did not adequately perform a general assessment of their
    internal controls for the Outstanding Contract Financing balance. Specifically,
    the Navy and DFAS Management Control Program did not establish specific
    control objectives, potential risks, and control techniques within their assessable
    units that would have prevented the material weaknesses from occurring. Further,
    the Navy and DFAS did not have a test of controls for reconciling the General
    Fund Outstanding Contract Financing balance to source documentation.

    Navy. The Navy had an assessable unit for audited financial statements. The
    Navy reported a material weakness related to this assessable unit, but did not
    establish specific control objectives and control techniques to prevent the material
    weaknesses identified in Finding A from occurring. Further, the Navy did not
    have any test of controls for verifying the completeness and accuracy of the
    Outstanding Contract Financing balance. Specifically, Navy officials did not



                                           18
    attempt to reconcile transactions which comprised the Outstanding Contract
    Financing balance with the detailed support from the disbursing stations.

    DFAS. DFAS Cleveland had an assessable unit for audited financial statements.
    However, DFAS Cleveland did not report material control weaknesses related to
    this assessable unit. The controls over this specific unit did not identify the
    potential risks and controls techniques to prevent the material weaknesses from
    occurring. Additionally, DFAS officials did not attempt to reconcile transactions
    which comprised the Outstanding Contract Financing balance with the detailed
    support from the disbursing activities.

    DFAS Kansas City had an assessable unit for Accounting Procedures and
    Practices. The purpose of the assessable unit is to provide accounting guidance
    for DFAS Kansas City and supported activities. DFAS Kansas City did not report
    a material weakness for this assessable unit. The controls over this specific unit
    did not identify the potential risks and control techniques, such as providing
    accounting procedures that comply with Federal Accounting Standards, to prevent
    the material weakness from occurring.


Recommendations, Management Comments, and Auditor
  Response.
    C.1. We recommend that the Assistant Secretary of the Navy (Financial
    Management and Comptroller):

           a. Develop tests to determine whether internal controls have been
    designed and implemented to prevent the material weaknesses identified in
    Finding A of this report, and

    Management Comments. The Director, Office of Financial Operations,
    Assistant Secretary of the Navy (Financial Management and Comptroller)
    concurred with the recommendation. That office will work with Naval Air
    System Command to ensure development of tests to determine whether internal
    controls have been designed and implemented to prevent the material weaknesses
    identified by the audit.

           b. Report the material weaknesses identified in Finding A of this
    report in the Navy Annual Statement of Assurance.

    Management Comments. The Director, Office of Financial Operations
    concurred with the recommendation and stated that the issue of contract financing
    will be reviewed to determine if it should be included in the FY 2006 Annual
    Statement of Assurance. In addition, the Navy stated that it has a discovery effort
    that will document their business processes, identify relevant controls, standardize
    processes using compliant systems, provide the appropriate skills for personnel,
    and ultimately better prepare the Department for audit. This effort is referred to
    as the Department of the Navy Financial Improvement Program, which is part of
    the broader Office of the Under Secretary of Defense (Comptroller)/Chief
    Financial Officer-led Financial Improvement and Audit Readiness initiative.




                                        19
Audit Response. The Navy comments were responsive. We did not review the
Navy Financial Improvement Program. However, we agree that the Navy efforts
should improve controls over contract financing payments if the scope of the
improvement program includes contract financing payments.

C.2. We recommend that the Director of Defense Finance and Accounting
Service Cleveland:

       a. Develop tests to determine whether internal controls have been
designed and implemented to prevent the material weaknesses identified in
Finding B of this report, and

Management Comments. The Director, Accounting Services partially
concurred with the recommendation. He concluded that processes and controls
have improved since the initial finding, that this is not a material weakness, and
that further tests of those controls are unnecessary. He stated that staffing has
stabilized, and experienced senior staff members are extracting data from the
STARS suite of systems. Additionally, STARS data extraction queries are
validated to include the correct accounting periods by supervisory review. The
current development and preparation of a desktop operating procedure will aid
future staffing changes in accurately capturing data from STARS.

Audit Response. The Director’s comments were partially responsive. We agree
that desk procedures and supervisory review will improve the controls. However,
until such time as the controls are implemented, DFAS should continue to test
controls related to these weaknesses. We request that the Director reconsider his
position on the recommendation and provide comments on the final report

        b. Report the material weakness identified in Finding B of this report
in its Annual Statement of Assurance.

Management Comments. The Director, Accounting Services nonconcurred with
the recommendation. He stated that controls are now in place to ensure that
personnel will accurately pull data from STARS to support the STARS portion of
the Navy Outstanding Contract Financing Payment balance. DFAS agreed that a
portion of the data was previously overlooked, but the amounts were not material
in relation to the total value of outstanding contract financing on the Department
of the Navy’s Balance Sheet.

Audit Response. The Director’s comments were not fully responsive. The
controls that the Director mentioned were not in place during the audit and will
not be in place until February 2007, according to his comments. The audit
showed that these weaknesses are material. Until controls are in place and it has
been determined that they are operating effectively, DFAS should report a
material weakness related to the contract financing balance. We request that the
Director reconsider his position on the recommendation and provide comments on
the final report




                                     20
C.3. We recommend that the Director of Defense Finance and Accounting
Service Kansas City:

       a. Develop tests to determine whether internal controls have been
designed and implemented to prevent the material weaknesses related to the
Marine Corps identified in Finding B of this report, and

Management Comments. The Director, Accounting Services partially
concurred with the recommendation. He stated that internal controls are routinely
assessed and tested based on compliance guidelines. He also stated that DFAS
has established standing procedures to both correct existing weaknesses and to
identify and take appropriate actions to correct newly discovered weaknesses. He
believed that a material weakness did not exist and that corrective actions to
address this discrepancy have been implemented.

Audit Response. The Director’s comments were responsive. If additional
written guidance has been created, then the internal controls have been
strengthened and no additional action is necessary.

        b. Report the Marine Corps material weakness identified in Finding B
of this report in its Annual Statement of Assurance.

Management Comments. The Director, Navy Accounting Services
nonconcurred with the recommendation. He stated that the errors occurred as a
result of a misinterpretation of existing guidance and that the policy has been
corrected.

Audit Response. The Director’s comments were responsive. Even though he
nonconcurs that a material weakness existed, the corrective actions taken to issue
new written guidance should correct this material weakness.




                                    21
Appendix A. Scope and Methodology
    Contract financing payments are authorized Government disbursements of monies
    to a contractor prior to the delivery of supplies or services by the Government.
    The Navy reported $4.7 billion as an Outstanding Contract Financing balance in
    FY 2004. The balance is a part of the amount reported in the FY 2004 Balance
    Sheet as “Other Assets.” We did not examine all of the data included in the
    FY 2004 Outstanding Contract Financing balance, but we did review the detailed
    transactions from the first six months of FY 2004 to evaluate the Navy process for
    deriving the balance. The Navy reported $6.7 billion of contract financing
    payments for the first 6 months of FY 2004. This amount included $5.1 billion
    maintained by Naval Air System Command and $1.6 billion maintained by the
    Defense Finance and Accounting Service. The Naval Air System Command data
    are maintained at Patuxent River, Maryland, and the Defense Finance and
    Accounting Service data are maintained at Cleveland and Kansas City Centers.

    We used the entire Naval Air Systems Command (NAVAIR) database of contract
    financing payments to determine whether the FY 2005 process is operating
    effectively. We reconciled MOCAS transactions for contract financing with the
    ERP and STARS transactions for first and second quarter of FY 2004. We
    matched MOCAS records to ERP records by contract number, dollar amount,
    transaction date, voucher number, and Accounting Classification Reference
    Number.

    We performed this audit from October 2004 through August 2005 in accordance
    with generally accepted government auditing standards.

    We did not audit any detailed transactions related to the Marine Corps Advances
    and Prepayments account. We also did not test the transactions in the Navy
    disbursement tracking system and we did not attempt to audit the entire Navy
    Outstanding Contract Financing balance.

    Use of Computer-Processed Data. We used computer-processed data from
    MOCAS, STARS, and ERP to perform this audit. We compared MOCAS to ERP
    and STARS. Although we did not perform a formal reliability assessment of the
    MOCAS data, we determined that the information in MOCAS relating to the
    contract financing was generally reliable. ERP and STARS contract financing
    data was not reliable. See Findings A and B for the discussion of the unreliability
    of ERP and STARS data. We used Navy disbursement tracking system data but
    did not test the reliability. This did not affect our audit results.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the Defense Financial Management high-risk area.


Prior Coverage
    No prior coverage has been conducted on accuracy of Navy Outstanding Contract
    Financing balance during the last 5 years.


                                        22
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Naval Inspector General
Commander Naval Air Systems Command

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                          23
Department of the Navy Comments




                    25
26
27
28
29
30
31
Defense Finance and Accounting Service
Cleveland Comments




                      32
33
34
35
36
37
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

James L. Kornides
Mark Starinsky
Lisa S. Sherck
Kelly E. Prillaman
Rebecca J. Thompson
Amber M. B. White
